GR-80-97-001
U.S. Department of Justice
 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
CITY OF LUBBOCK, TEXAS
AUDIT REPORT NUMBER
GR-80-97-001
JANUARY 24, 1997
 
AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Lubbock, Texas. The City received a grant of
$596,154 to hire or rehire eight additional sworn police officers under the Accelerated
Hiring, Education, and Deployment (AHEAD) program. The purpose of the grant is to enhance
community policing efforts.
Generally, the City of Lubbock (City) properly managed the COPS grant. Specifically:


- Costs charged to the AHEAD grant were allowable and in accordance with grant
    requirements. As of December 6, 1996, the City had requested reimbursement of
    $157,107 (or 68 percent) of the allowable costs chargeable to the grant.
- Budgeted funds for police services and the number of City police officers budgeted
    increased since FY 1994, the year before the beginning of the grant. In addition, the
    City appeared to be making a good faith effort to fill officer vacancies timely.
- The City had submitted its Financial Status Reports to the Office of Justice Programs
    (OJP) in a timely manner.
- Funds provided under the grant were used to enhance community policing efforts. The
    Lubbock Police Department has embraced the community policing concept and was actively
    training patrol officers in community policing. In addition, the Lubbock Police Department
    has been successful in implementing specific community policing techniques that support
    the City's neighborhood associations.


However, we found the following weaknesses with regard to meeting the conditions of the
grant:


- Neither the Department Annual Report nor the Officer Progress Reports were submitted
    to COPS.
- Financial Status Reports submitted to OJP reported incorrect total program costs.
- Additional steps are needed to further improve the Lubbock Police Department's
    relationship with the City's neighborhood associations in order to meet the community
    policing goals described in the City's grant application.
#####